U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 15, 2021

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Terry v. United States, No. 20-5904
Dear Mr. Harris:
This case raises the question whether petitioner’s conviction for possessing an unspecified
amount of cocaine base (crack cocaine) with intent to distribute, in violation of 21 U.S.C. 841(a)(1)
and (b)(1)(C), for which he was sentenced before August 3, 2010, is a “covered offense” for which
petitioner would be eligible for a reduced sentence under Section 404 of the First Step Act of 2018,
Pub. L. No. 115-391, 132 Stat. 5222. In its brief in opposition to certiorari, filed on December 4,
2020, the United States argued that petitioner lacks a “covered offense” as defined in the First Step
Act. The purpose of this letter is to notify the Court that the United States has reconsidered that
position and will no longer defend the judgment of the court of appeals.
Following the change in Administration, the Department of Justice began a process of
reviewing the government’s interpretation of Section 404 of the First Step Act. As a result of that
review, the Department of Justice has concluded that petitioner’s conviction is a “covered offense”
under Section 404, that petitioner is entitled to request a reduced sentence, and that the court of
appeals erred in concluding otherwise.
In light of the government’s current position, the Court may wish to appoint an amicus
curiae to defend the judgment below. The case is currently scheduled for oral argument on April
20, 2021. According to the Federal Bureau of Prisons, petitioner is scheduled to complete the
remainder of his term of imprisonment, which he will serve almost entirely on home confinement,
on September 22, 2021. At that time, he will begin serving a six-year term of supervised release,
which is the minimum term of supervised release permitted under 21 U.S.C. 841(b)(1)(C) for his
offense. Were the case not to be decided before September 22, a question of mootness would arise
that would need to be addressed before any decision on the merits.

We stand ready to proceed however the Court determines would be appropriate under the
circumstances.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

2

20-5904
TERRY, TARAHRICK
USA

ANDREW LEE ADLER
FEDERAL PUBLIC DEFENDER'S OFFICE
ONE EAST BROWARD BLVD.
STE. 1100
FORT LAUDERDALE, FL 33301
ANDREW_ADLER@FD.ORG
LOREN L. ALIKHAN
OFFICE OF THE ATTORENY GENERAL FOR
DC
400 6TH STREET, NW
SUITE 8100
WASHINGTON , DC 20001
202-727-6287
LOREN.ALIKHAN@DC.GOV
MIRIAM BECKER-COHEN
1200 18TH STREET, NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
MIRIAM@THEUSCONSTITUTION.ORG
202-296-6895(Fax)
JENNESA CALVO-FRIEDMAN
AMERICAN CIVIL LIBERTIES UNION
125 BROAD ST.
NEW YORK, NY 10004
646-885-8347
JCALVO-FRIEDMAN@ACLU.ORG

GERARD J. CEDRONE
GOODWIN PROCTER LLP
100 NORTHERN AVENUE
BOSTON, MA 02210
617 570 1849
GCEDRONE@GOODWINLAW.COM
DAVID D. COLE
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15TH STREET, NW
WASHINGTON, DC 20005
212-549-2611
DCOLE@ACLU.ORG
BRIANNE J. GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG
MARISA MALECK
KING & SPALDING
1700 PENNSYLVANIA AVENUE, NW
2ND FLOOR
WASHINGTON, DC 20006
202-341-6492
MMALECK@KSLAW.COM
MICHAEL PEPSON
AMERICANS FOR PROSPERITY
1310 N. COURTHOUSE ROAD
SUITE 700
ARLINGTON, VA 22201
MPEPSON@AFPHQ.ORG

ZACHARY C. SCHAUF
JENNER & BLOCK LLP
1099 NEW YORK AVE., N.W.
SUITE 900
WASHINGTON, DC 20001
202-639-6000
ZSCHAUF@JENNER.COM
JOSHUA C. TOLL
KING & SPALDING LLP
1700 PENNSYLVANIA AVE. NW
WASHINGTON, DC 20006
202-737-0500
JTOLL@KSLAW.COM

